                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

     Case Number: 1-05-10-0061
                                                                                          I         Page 1 of 1



              The Office of Inspector General received two complaints, through the Government Accounting
              Office's FraudNet, alleging that Michigan State University (MSU) improperly charged the costs
              of FICA taxes for visiting foreign scholars (who were exempt from such taxes) and healthlcare
              benefits for MSU retirees (which were charged as fringe benefits associated with current
              employees) to federal awards.

              Coordination with MSU7sOffice of Contract and Grant Administration, MSU7sOffice of
              Internal Audits, and Health and Human Service's (HHS)(cognizant agency) Division of Cost
              Allocation, disclosed that MSU has properly charged FICA to federal awards for foreign
              scholars, when allowable.' Coordination with these offices also disclosed that HHS approved
              MSU's methodology of paying retiree health care costs on a pay as you go basis and then
              allocating those costs to current employees as a form of h n g e benefit cost. HHS related that this
              is a relatively common way of managing such costs.

              In light of the above, no further investigative effort is necessary in this matter.




-
    NSF OIG Fonn 2 (1 1/02)
